) . ,.                                 ..    --'




                                        It


                    RURAL GEORGIA PHARMACY

                                   CLOSURES





               i.\lVICES'
                            (I.r




         '0


              tt""!la


         OFFICE OF INSPECTOR GENERAL
         OFFICE OF ANALYSIS AND INSPECTIONS
                                                   DECEMBER 1989
                             OFFICE OF INSPECTOR GENERAL


 The mission of the Offce of Inspetor Genera (OIG) is to promote the effciency, effective­
 ness , and integrty of progrs in the Unite States Deparent of
                                                                  Health and Huma Ser­
 vices (HS). It does ths by developing method to detet and
                                                              prevent fraud, waste, and
 abuse. Create by statute in 1976, the Inspetor General keeps both the
 gress fully and curently inorm about progrs or management problems and
                                                                            Sectaand the Con­
                                                                               recommnds
 corrtive action. The OIG perform its mission by conductig audits, investigations, and in­
 spetions with approxiately 1      40 sta strtegicaly locate around the countr.

                     OFFICE OF ANALYSIS AND INSPECTIONS

 This report is produced by the Ofce of Analysis and
                                                                 (OAI, one of the thee

                                                        Inspetions
 major offces within the OIG. The other two ar the     Ofce of Audit and the Offce of Inves­

 tigations. Inspections   ar conducte in accordace with professional
OAI. These inspections ar tyically short-term studies designed to
                                                                        stada develope by

                                                                  determe        program effec­

tiveness, effciency, and vulnerabilty to frud and abuse.


The purose of this inspection , entitled " Rur Georgia
                                                       Pharacy Closurs, " was to descrbe

the extent and causes of rual pharcy       closurs in Georgia.


This inspetion was
                     performed under the dition     of Linda Herzg, the Regional    Inspetor
General of Region
                          Offce of Analysis and Inspetions.   Parcipatig in the project were:
Atlanta Region                                 Headquarters
Ron Kal Project Leader                         Carlyn Ris
Betty Davis
Ruth Reiser
Joe Townsel
Jim Wilson
Peggy Danel
Jean Dufresne
       RURAL GEORGIA PHARMACY

                  CLOSURES





                  Richard P. Kusrow
                  INSPECTOR GENERAL




OAI- 049Q-00990                       DECEMBER 1989
                                  EXECUTIVE SUMMARY


PURPOSE
The purose of ths inspection was to examne the extent and causes of     ru pharacy
closures in Georgia in Fiscal Year 1989.

BACKGROUND

The Georgia Pharaceutical Association has expressed concern about      rupharacies
closing, and has suggeste that the closurs may be associated with Medicaid reimbursement.



FINDINGS

This inspection found that:


              Twelve rual     pharacies in Georgia closed in Fiscal Year 1989.

              Retiement and financial problems were the reasons for closur.

               State and local respondents reported no closures were due to Medcaid
               reimburement. However, some respondents cautioned that as cost containment
               measurs are implemented in the Medcaid progrm, small pharacies with
          .   high percentage of Medicaid prescription sales may experience financial
               difficulties.

              The closure of these 12 rual pharacies did not affect access to pharacy
              servces for Medcaid clients in those communities.
                                                                                                                . . . . . . . . . . .. .. .. .. .. . . . . . .. ....
                . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ... .. .. .. .. ... .. .. .. .. . . . ..




                                               TABLE OF CONTENTS


EXECUTIVE SUMMARY

INTRODUCTION

      Purpose. . . .

      Background. . . . . .
      Scope
FINDINGS

      Twelve Rural Pharmacies Closed in Fiscal Year 1989 . . . . . . . . . . . . . . . . . . . ..

      Retirement and Financial Problems Were the Reasons for
      Closure
      Closures Did Not Disrupt Access to Pharmacy Services for

      Medicaid Clients


      Medicaid Cost Containment Measures Reduce Pharmacy Profits. . . . . . . . . . ..                                                                                             6

      Summary. . . . .                                                                                                                                               . . .. 7
APPENDICES
      Appendix A: Information Sources and                                           Methods. . . . . . . . . . . . . . . . . . . . . . . A - 1
      Appendix B: Reimbursement by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-
      Appendix C: Georgia Continues to Pursue Cost
                            Containment for Medicaid Pharmacy Service                                                                                                    C - 1
                                     INTRODUCTION




PURPOSE
The purose of this inspection was to examne the extent and causes of rural pharacy
closures in Georgia during Fiscal Year 1989. Special attention was given to the possible effect
of Medicaid reimbursement on pharacy closure.


BACKGROUND

The Georgia Pharaceutical Association has expressed concern about rura pharacies
closing, and has suggested that these closures may be associated with Medicaid
reimbursement Because some rura communities in Georgia have high proportions of
Medicaid recipients, and access to pharacy services may be afected by pharacy closures,
the Deparent of Health and Human Services has an interest in this expressed concern.

The Secretar of the Deparent of Health and Human Services (HS) requested this
inspection.

Medicaid Reimbursement

Medicaid is a Federaly aided, State-administered progr which provides health care for the
poor. States design, establish, and operate their Medicaid progrs under the provisions of
title XI of the Social Securty Act and HHS regulations. Usually, States make payments
diectly to health care providers, including pharacies, for services rendered to Medicaid
recipients. Within broad Federal limits, States generally are allowed to set reimbursement
rates for health servces covered by the program.

Federa Medicaid regulations limit reimburement for pharacy services to the lowest of:

             an upper limt established by HHS' Health Car Financing Administration
             (HCFA) for certain multi-source (generic) drgs, plus a reasonable dispensing
             fee set by each State;

             the estimated acquisition cost (EAC)-- the price generally paid by
             pharacies-- for any drg, as established by the State Medicaid agency, plus a
             reasonable dispensing fee;'


             the pharacy s usual and customar charge for the drg.
,.                                                                                            " (





     Dispensing fees ar   paymentsmade to pharacies to cover the cost of fillng prescriptions.
     Federa regulations allow States to set their own dispensing fees and require only that the fees
     be " reasonable.


     States also establish the EAC. According to the Federal requirements, the amount established
     should be " the price generally and currently paid" by pharacies for the paricular drug. The
     EAC usualy applies to brand name drgs, but can be used for generic drgs if the EAC is
     lower than both the upper limit set for the generic drg and the pharacy s usual and
     customar charge. The methodology for determning the EAC vares from State to State.
     Each State s formula for EAC is shown in appendix B.

     Determination of Estimated Acquisition Costs (EAC).

     Most pharacies purhase drgs from a wholesaler who represents all the major               drg
     manufactuers. Severa industr publications report an " average wholesale price      WP) that
     wholesalers charge for each drg. However, wholesalers offer the pharacies substantial
     discounts below the AWP as incentives for such things as high volume purchasing, timely
     payments, and infrquent deliveries. Virually all pharacies get discounts, although the
     amount of the discount may var.

     States use the A WP as a guide in establishing EACs; however, the A WP does not accurately
     reflect the price generaly paid by pharacies because it does not account for the discounts.
     Therefore, HCFA has aggressively encouraged States to establish EACs at an amount lower
     than AWP. In August 1989, HCFA revised the State Medicaid Manual to explain that, absent
     valid documentation to the contr, States could no longer reimburse pharacies using A WP
     without a reduction. Nationally, HCFA expects major savings from this policy change.

     The HCFA' s actions are supported by the findings of several studies. A 1984 Audit report
     issued by the llS   Inspector General l concluded that, on average, pharacies actually
     purchase drgs for 15. 9 percent below AWP. In an October 1989 update2 of that audit, the
     Inspector Genera found no significant change in the level of discounting. The 1989 analysis
     showed that, on average, pharcies now purchase drgs at 15. 5 percent below AWP. Recent
     studies by the HCFA Region IV and VI offices provide additional support. Their studies have
     also found that the actual price paid by pharacies is stil significantly below A WP.




      0ffce of Inspetor Genera, United   States Deparent of Health and Human Services. " Changes to the
     Medicad Prscption Drg Program Could Save Milions. " ACN: 06-4216. 1984.


      0ffce of Inspetor Genera, United States Deparent of Health and Human Services. " Use of Average
     Wholesae Prces in Reimburing Phanacies Parcipating in the Medicaid and the Medicare Prescription Drug
     Progr. "   CIN: A- 0689-O37. October 1989.
SCOPE
All Georgia      ru
                 pharacies known       have close from October 1 , 1988 to September 30,
1989 and all rual pharacies that withdrw from the Medcaid progr durng that period
were included in the inspection. Independent pharacies, community pharacies, and chain
pharcies were included in the study.


For puroses of this study the following definitions were used:

                      One that stopped Qispensing prescription drgs durg Fiscal Year
     Closed Pharmacy: 


     1989. A pharacy that was sold and remained open was not counted as a closure. Also,
     a pharacy that moved to another location in the same    ru
                                                              community was not counted
     as a closure.

    Rural: A city, town , or locality which is not located in a Metropolitan Statistical Area
     (MSA) as defined by HCFA.


Appendi A contans information on data soures and methods used in this inspection.
                                        FINDINGS


Twelve Rural Georgia Pharmacies Closed in Fiscal Year 1989.

There are curently 1 976 licensed pharcies in Georgia. Approximately 46 percent are in
rual areas. This inspection found only 12 closures between October 1 , 1988 and
September 30, 1989 in the    ru aras of the State.

Of the 12 stores that did close, nine were independent pharacies and three were chain drg
stores. The map on the following page shows the location of the closed pharacies. The
population of the towns where pharacies close rages frm 3, 112 to 37, 596, with the
exception of one town of only 757 people. All of the closed pharacies were Medicaid
providers.

Retirement and Financial Problems Were    the Reasons for Closure.


In five cases, retiement was the reason for closur. Thee owners did not have a buyer, so
they closed their stores. Two owners sold their businesses to nearby pharacies who chose
close these locations. None of the former owners said financial diculties had contrbuted to
their decisions to retie.




     remaiing seven cases, varous fiancial problems were cited as the reasons for closure.
In the
Two of the closurs were Revco stores. These were closed by Revco D. S. Inc. as par of
Chapter 11 banptcy proeegs, which        reuir   closing the chain s less profitable stores.
Two other pharacies closed due to competition from bigger pharacies in town. In two
other cases, the owners had more than one pharacy in town and decided to consolidate them.
Finaly, one owner wanted to move out of State. His store was having cash flow problems,
prompting his decision to close it and move.

None of the respondents cited Medcaid reimbursement as the reason for closur. However, in
response to specific questions about Medcaid, th  former owners indicated they were
experiencing cash flow problems, and that Medcaid reimbursement was a contrbuting factor.

Closures Did Not Disrupt Access to Pharacy Servces/or Mediaid Clients.

The closure of the 12 pharacies did not afect access to pharacy services for Medicaid
                                         ru
clients in those communities. In 11 of the    towns where pharcies closed, from 2 to 25
other drg stores stil accept Medcaid.

In one case, a town with a population of 757, the close pharacy was the only pharacy. Its
closure means that al residents, includig Medcaid clients, have to go elsewhere to get
prescrptions filled. The nearst town is nine mies away. It has 12 pharcies.
TWELVE RURAL PHARMACIES CLOSED





         . RURAL PHARMACY CLOSURES
Medicaid Cost Containment Measures Reduce Pharacy Profits.

The HCFA has been encourgig States to mofy their pharacy payment formulas so that
reimbursement on the basis of EAC is below the A WP.


Most States have implemented this new HCFA policy. In August 1988, Georgia Deparent
of Medical Assistance (DMA) changed its pharacy reimburement formula. After          the
months ' experience with the new formula, the State projecte an annual savings of $7 milion.
The DMA has not complete its fmal analysis of the actual savings.

Georgia now:

               limits the pharacies ' EAC to A WP minus 10 percent; and

             pays a dispensing fee of $4. 26   per prescrption.


As shown in appendix B , Georgia s A WP discount is comparable to those of other States. Its
dispensing fee, at $4.26, is one of the highest.

What has been the effect of Georgia s cost contaent measures on Medcaid- parcipating
pharcies? State offcials say that changes in reimbursement schedules have reduced
pharcy profits. However, they know of no phanacies which closed in 1989 due to
Medcaid payment reforms. 

Most State respondents agree with the OIG Audit fmding that pharcy reimburement
should be based on a discount from the A WP. Some point out, however, that a uniform
discount wil afect individual pharcies quite dierently. In parcular, pharacies which
are smal and have high proportons of Medcaid-reimburable sales wil be more negatively
affected than larger phanacies with low Medcaid proportons. In fact, Medicaid reductions
may result in financial diculties for some sma pharacies.

The respondents explain that;

             Wholesalers give discounts for volume purhasing, quick payment, and
             infrequent account servcing. Sma stores with low sales volumes and shalow
             inventories are unable to get the best wholesalers ' discounts. Since the smaller
             stores get fewer discounts, their operating margins tend to be smaller.

             Pharacies with a high Medicaid-to- private sales ratio have limited opportunity
             to " cost shift " Medicaid reductions to other private sales. The impact on
             operating margins is compounde, then , for pharacies which serve high
             proportons of Medcaid clients.
Some respondents suggest that viable pharcies may drop out of the Medicaid program
because of low Medicaid reimbursement. However, the number of Georgia pharacies
parcipatig in Medicaid remais very high--over 90 percent This inspection of rura
pharcies found that, aside from those which closed, only one pharacy withdrw from the
Medicaid progr in 1989.

In addition to discounts from the A   WP, the State of Georgia has recently taen steps to further
contain Medicaid pharacy cost. These initiatives are described in appendix      C.


Summary

 This inspection found that very few   rupharacies in Georgia closed in the past year and
 none of the closurs were attrbuted to Medicaid reimbursement policies. Some respondents
 cautioned that as more Medicaid cost containment measurs are implemented in Georgia,
, small pharcies with a high percentage of Medicaid sales may encounter financial problems.
                              APPENDIX A


             INFORMATION SOURCES AND METHODS

Types of Information and Sources

    Lists of Pharcies Closed and Withdrwn from Medicaid Progr

         Georgia Deparent of Medcal Assistance (State Medicaid agency)

         Georgia Boar of Pharacy (State licensing agency)

         Georgia Pharaceutical Association


    Reasons for Closur

         State Agencies/Organzations

               Georgia Deparent of Medical Assistance

               Georgia Board of Pharacy

               Georgia Pharaceutical Association
               Georgia Legislatu
        Loal Communities where Pharacies Closed

              Health care providers
              Former owner(s) of closepharacy
              Owner(s) of nearby pharacies
              Municipal officials
              Chambers of Commerce

    Impact on Access

        Georgia Business Ditor

        Intervews with local community respondents

        (See above #2.



Methods of Information Collection

    From Existing Data Bass

    The Georgia Depament of Medcal Assistace (DMA) provided a list of
    pharcies. that have ceased to parcipate in the Medicaid program. These
    pharcies either: a) had mail retued to DMA , b) had not submitted a
Medicaid claim within 2 years and had failed to respond to letters of inquir,
or c) had voluntary withdrwn frm the program

The Georgia Board of Pharcy provided a list of pharacies which its
licensing inspectors. had found to be closed when they went out to conduct
inspections.

From these two lists, all pharcies which fit the following criteria were
identied:

    pharacies locate in     ru    aras; and
    pharacies whose      effective date of termation frm the Medcaid
    progr     was between   10/1188   and        including pharacies
                                            9/30/89,

    that the licensing inspectors discovere to be closed durng that period.

A single unduplicate list was produced of 68 rual pharacies in Georgia which
the State believed to have closed or withdrwn from the Medcaid program
durg Fiscal Year 1989. (It should be note that adtional pharcies may have
closed durng that time period, but have not yet appear on any State list.



From Contacts with Informed Persons

The inspection team attempted to contat each of the 68 pharcies by telephone
to fIrst verify if it had closed and, if so, when. In adtion, the telephone
interviews were to fid out:

a. the reasons for the closur;
         pharacy served Medcaid clients; and
  . if the

c. the location of other nearby pharcies that fIll Medcaid prescriptions.
Telephone intervews were   conducte with the curnt or formr owner of the
pharcy whenever possible. Other local respondents were also intervewed,
includig nearby pharacy owners, other health professionals in the community,
municipal offcials and any other knowledgeable respondents.
                                                                                                                     APPENDIX B



                                                                                          REIMBURSEMENT BY STATE

                                                                                                                                   j:i:i::ii::::ii:i:::::::IIIIIIII:jlll::j:jjjjjii::i::i::::::::::ij::::::::::::::::::j::::::jj:j:i:i::::ji:::::::jjj:j:ji:lll:j:::::::::::::j::i:::i:::i::::I:ji:i
iillili:i::::ii::::::ii:jj:::::i:::ijjji:iiiii::jjjjji:::::::i::jjiii:jjj: jjjji:iiji:::iii:ijjjjj:i:i:i:!ijjji:i:j:jj::::::i:::i:ii:j:::j:i:::iij:j:ij:




ALABAMA                                                                                                                                                $3.                                                                          WAC plus 9.

ALASKA                                                                                                                                                 $3.45-                                                                       A WP mius 5%
                                                                                                                                                       11.46

ARIONA                                                                                                                                                State contrcts with pre-paid plans

ARKSAS                                                                                                                                                $4.                                                                          AWPmius 7%


CALIFORN                                                                                                                                              $4.                                                                          AWPmius 5%


COLORAO                                                                                                                                               $3.                                                                          Lower of A WP or
                                                                                                                                                                                                                                   WAC plus 18%

CONNCfCU                                                                                                                                              $3.                                                                          AWPmius 8%


DELAWARE                                                                                                                                              $3.                                                                          Actual Cost
                                                                                                                                                                                                                                   to Pharacy

DISTRCf OF COLUMIA                                                                                                                                    $4.                                                                          A WP mius 10%
                                                                                                                                                      $5. 10             for
                                                                                                                                                      compound Rx

FLORIDA                                                                                                                                               $4.                                                                          WAC plus 7%

GEORGIA                                                                                                                                               $4.                                                                          A WP mius 10%

HAWAII                                                                                                                                                $4.                                                                          AWP mius 10.

IDAHO                                                                                                                                                 $4.                                                                          Actual Cost
                                                                                                                                                      $4. 15             unit                                                      to Pharacy
                                                                                                                                                      dose

ILINOIS                                                                                                                                               $3. 58 or                                                                    Lower of

                                                                                                                                                      10% of drg                                                                   State maximum or
                                                                                                                                                      (to maximum)                                                                 Usual & Customar
                                                                                                                                                                                           i:llli
:::::iim&lIi::iii:iiii::iii:i:i:i:i:i:::::i:I::i:::i:i::::::::ii:ii:::i:ii:iiiiiiiiiiiiiiiiiii!r!iii:i:ii:::iiili:::ii::iiiiiii:i:i:I:::i:::iii:iiliii::ii:I::i::ii):ii::i:ii::::i:iIII1811:        ii:i:::iii::iii::::::::::i:ii::::i:::::::i:::i:::i:i:i:::::i:i:::::i:i:i::::::::::::III::::::::::::::i:::i::::ii:i:::::::i:




INIANA                                                                                                                                                      $3.                                                                      A WP mius 10%

IOWA                                                                                                                                                        $3.                                                                      AWP

KANSAS                                                                                                                                                      $2. 79­                                                                  A WP mius 10%
                                                                                                                                                            $5.
                                                                                                                                                            Vares by
                                                                                                                                                            pharacy

KENTCKY                                                                                                                                                     $3.
                                                                     AWPmius 5%


LOUISIAA                                                                                                                                                    $3.
                                                                     AWPmius 10.

MAIN                                                                                                                                                        $3.
                                                                     AWPmius 5%


MAYLAN                                                                                                                                                      $3.
                                                                     AWP


MASSACHSETTS                                                                                                                                                $3.
                                                                    WAC plus 10%


MIcmGAN                                                                                                                                                     $3.                                                                      A WP mius 10%

MISOTA                                                                                                                                                      $4.                                                                      A WP mius 10%

MISSISSIPPI                                                                                                                                                 $3.                                                                     Lower of

                                                                                                                                                                                                                                    State maximum or
                                                                                                                                                                                                                                    Usual & Customar

MISSOURI                                                                                                                                                    $3. 10/                                                                  AWP
                                                                                                                                                            $3.

MONTANA                                                                                                                                                     $2.                                                                      AWPmius 10%

                                                                                                                                                            $4.
                                                                                                                                                                  75 for unit
                                                                                                                                                            dose systems

NEBRASKA                                                                                                                                                    $2. 84­                                                                 Lower of
                                                                                                                                                            $5.                                                                      AWPmius 8. 71%
                                                                                                                                                                                                                                     or WAC plus 12%

NEVADA                                                                                                                                                      $3.                                                                      A WP mius 10%
                                                                                                                      1!!!:i:i:i!ili:li:!illl!:!il:!i:ill_ill:II1I::::!i:::::i!:li:i:i!:i:!::::il::i::!!!!!:!::i:i:i::!::::i:!:!!:!:!:::i!!!!!!!:!:i:lilll:::i:i::::!:i::i!:I!:I:I:I::i::::::
::::::II&II:::I:::::::I:::::::::!!!:!:!:!:I:::!:!!::I::!:::!!!::II:!:::!!i:!!!!II:I::i:i!!!!:!::I:I!:I!!!!I:1:1:ii:!!:I!I:::I:il!!:!:I:I::IIIII!I




NEW HAMPSHI                                                                                                                                           $2. 85/                                                                    AWP

                                                                                                                                                      $3.

NEW JERSEY                                                                                                                                            $3. 73­                                                                    AWP mius

                                                                                                                                                      $4.                                                                       store-specifc
                                                                                                                                                                                                                                discount
                                                                                                                                                                                                                                 (0- 6% )

NEW MEXICO                                                                                                                                           $3.                                                                        A WP mius 10%

NEW YORK                                                                                                                                             $2.                                                                        AWP

NORTH CAROLINA                                                                                                                                       $4.                                                                        AWP

NORTH DAKOTA                                                                                                                                         $3.                                                                        AWP

OHIO                                                                                                                                                 $3.                                                                        AWP mius 7%


OKLAHOMA                                                                                                                                             $3.                                                                        A WP mius 10%

OREGON                                                                                                                                               $3. 52             or                                                      AWPmius 11%
                                                                                                                                                     $3.

PENNSYLVAN                                                                                                                                           $2.                                                                        AWP

RHODE ISLAND                                                                                                                                         $3.                                                                        Lower of A WP or
                                                                                                                                                                                                                                Usual & Customar

SOUT CAROLINA                                                                                                                                        $3.                                                                        AWPmius 9.

SOUT DAKOTA
                                                                                                                                         $4.                                                                        AWPmius 10.5%
TENNSSEE                                                                                                                                             $4.                                                                        AWP mius 7%


TES                                                                                                                                                  $3.                                                                        Lower of

                                                                                                                                                                                                                                AWP mius 10%

                                                                                                                                                                                                                                or WAC plus 12%

UTAH                                                                                                                                                 $3.                                                                        AWPmius 12%


VERMONT                                                                                                                                              $2. 75 or                                                                  AWP

                                                                                                                                                     10% of Drg
                                                      :::::: ::::                                                                                           :::                          ~~~~~




:::j:il&II:::: :i!!!!!!!::iii:::!!:!:::ii!:!!!:i:iii:!:!                                   :!!!!:!!:i::!!::ii:i!i!li!
                                                                !:i:i:!!I:!:::i:i:il!::!;\:il!::                                  :iii!illl.III::
                                                                                                                 !!iii::i::iiiji!!ii!i:                       ::::i:::::i:i i::i:!:i:i:::                          ::III:::!::!: i:i:!:!:!i::!i:::::::
                                                                                                                                                                                      :i::i: i:ii:i::::li:i! !:i!:::!!




VIGIN                                                                                                                                     $3.                                              Lower of A WP or
                                                                                                                                                                                           Usual & Customar

WASHIGTON	                                                                                                                                $3. 15, $3.                                       AWPmius 11%
                                                                                                                                          or $4. 20, base
                                                                                                                                          on # of Rxs.

WEST VIRGINA	                                                                                                                             $2.                                               AWP

WISCONSIN	                                                                                                                                $3. 72 (non-unit)                                AWP
                                                                                                                                          $5. 73 (unit dose)

WYOMIG	                                                                                                                                   $4.                                              AWP



DEFINIONS:
                    EAC:                           Estimated Acquisition Cost
                    WAC:                           Wholesale Acquisition Cost
                    AWP:                           Average Wholesale Prce


SOURCES OF INORMATION:

                   National Phanaceutic	 Council, Inc. 
 Pharmceutical Benefits Under State Medical
                   Assistanc Program.  September 1989.

                    Telephone calls to State Medcaid Agencies.
                                         APPENDIX C


            GEORGIA CONTINUES              TO PURSUE COST CONTAINMENT
                                FOR MEDICAID PHARMACY SERVICES



The Georgia legislatue passed a law this year (1989) which:


             permts the State s Deparent of Medcal Assistace (DMA) to solicit
             competitive bids from pharaceutical manufactuers and distrbutors to become
             the sole suppliers of specified drgs for all Medicaid clients;

             requis successful biddrs to pay rebates to the State;
             stipulates for any drg on the bid list, if no acceptable bids are received, the
             DMA may:

                      contract with a single supplier, or

                       prohibit reimbursement to vendors who have not submitted a bid; and

             allows the DMA to set Medicaid reimbursement limits on the duration of
             prescriptions for selected drgs where the manufactuer claims effectiveness
             within a cenain period of time; requires prior approval for continued coverage.



The DMA did not reeive any acceptable bids under the competitive biddig provisions of the
new law. In addition , manufacturs have sought a tempora restrning order to stop
implementation of the law. The DMA offcials contated durng this inspection indicated,
however, that the bid solicitation process wil be re-opened in 1990.
